BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

March 10, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Ronald Brount, AKA Ronald Brunt v. Maryland
Our File: CA17-2175
Docket No. 20-7365

Dear Mr. Harris:
A Petition for Writ of Certiorari filed on February 25, 2021, has been received
by this office in the above-referenced case. Please be advised that, unless the Court
orders otherwise, Counsel for Respondent does not intend to respond to the petition.
Attached is the waiver and appearance form to be filed on behalf of the
Respondent.
Sincerely,
/s/
Daniel J. Jawor
Division Chief
Criminal Appeals Division
DJJ:jlc

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

Page 2
CC:

Ronald Brount, #1166464
River North Correctional Center
329 Dellbrook Lane
Independence, VA 24348

